HHS/OIG-Audit--"Audit of Administrative Costs - Parts A and B and RailroadRetirement Board Provisions of the Medicare Program - Travelers Insurance Company,(A-01-96-00508)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs - Parts A and B and Railroad Retirement Board Provisions of the Medicare Program
- Travelers Insurance Company," (A-01-96-00508)
March 27, 1996
Complete
Text of Report is available in PDF format (2.02 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of the certified public accounting firm, Tichenor & Associates' audit of costs claimed
on Travelers final administrative cost proposals for Parts A and B and the Railroad Retirement Board provisions of the
Medicare program for Fiscal Years 1990 through 1993. The report recommends a financial adjustment of $2,803,620 for inappropriate
costs claimed.